               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




      Spending Trends for Maintaining
         Postal Service Facilities

                       Audit Report




                                          November 27, 2013

Report Number SM-AR-14-002
                                                                    November 27, 2013

                                            Spending Trends for Maintaining Postal
                                                                 Service Facilities

                                                        Report Number SM-AR-14-002



BACKGROUND:
The U.S. Postal Service’s Facilities        violations, which could result in fines
organization manages more than 32,000       estimated at about $2.9 million.
facilities with more than 280 million       In addition, Facilities can improve its
square feet of space. Postal Service        repair prioritization process to ensure
Finance and Planning allocates an           repairs are accurately prioritized.
annual budget to Facilities to fund         Misclassified repairs led to critical
repairs, alterations, and capital           repairs being identified as low priority
improvements. From fiscal years (FYs)       and repair prioritization lists were not
2009 to 2012, financial challenges have     reconciled to prior years’ lists annually.
led to a $382-million decrease in the       This occurred because Facilities did not
budget. Our objective was to determine      have documented procedures to ensure
the impact of budget constraints on the     accurate repair classification and annual
Postal Service's ability to fund facility   reconciliation of incomplete repairs.
repairs, alterations, and capital
improvements.                               Facilities ensures the safety and
                                            security of Postal Service properties by
WHAT THE OIG FOUND:                         identifying, prioritizing, and completing
Budget constraints have affected the        repairs to meet operational needs.
Postal Service’s ability to fund repairs,   However, given the Postal Service's
alterations, and capital improvements. In   financial challenges, funds to complete
FY 2012, the Postal Service spent $266      all repairs were limited. Additionally, the
million (29 percent) below the industry     Postal Service did not develop a
average on facility repairs — spending      strategy to complete all repairs and did
$2.69 per square foot versus $3.81 per      not reallocate funds to unallocated
square foot. As a result, during FYs        critical repairs. By not accurately
2011 and 2012, Facilities did not           prioritizing and completing repairs, the
complete 19,033 repairs (18 percent)        Postal Service increased its safety and
estimated to cost $271 million. Fifty       financial risks.
percent of these incomplete repairs
represented safety, security, and           WHAT THE OIG RECOMMENDED:
potential future major repairs. Future      We recommended management
costs for these unfunded repairs could      develop a strategy and reallocate funds
reach $1.4 billion.                         to complete repairs and establish written
                                            procedures to accurately classify repairs
Sixteen percent of these repairs            and reconcile prioritization lists annually.
represented potential Occupational
Safety and Health Administration            Link to review the entire report
November 27, 2013

MEMORANDUM FOR:            TOM A. SAMRA
                           VICE PRESIDENT, FACILITIES

                           SHAUN MOSSMAN
                           ACTING VICE PRESIDENT, FINANCE AND PLANNING




FROM:                      Michael A. Magalski
                           Deputy Assistant Inspector General
                            for Support Operations

SUBJECT:                   Audit Report – Spending Trends for Maintaining
                           Postal Service Facilities (Report Number SM-AR-14-002)

This report presents the results of our audit of Spending Trends for Maintaining U.S.
Postal Service Facilities (Project Number 13YG005SM000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Monique P. Colter, director,
Supply Management and Facilities, or me at 703-248-2100.

Attachment

cc: Corporate Audit and Response Management
Spending Trends for Maintaining Postal Service Facilities                                                          SM-AR-14-002



                                               TABLE OF CONTENTS


Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Spending Below Industry Average .................................................................................. 2

Repair Prioritization Process ........................................................................................... 3

   Misclassified Repairs ................................................................................................... 3

   Reconciliation of Prioritization Lists ............................................................................. 3

Recommendations .......................................................................................................... 3

Management’s Comments .............................................................................................. 4

Evaluation of Management’s Comments ......................................................................... 4

Appendix A: Additional Information ................................................................................. 6

   Background ................................................................................................................. 6

   Objective, Scope, and Methodology ............................................................................ 7

   Prior Audit Coverage ................................................................................................... 8

Appendix B: Other Impacts ............................................................................................. 9

Appendix C: Management’s Comments ........................................................................ 10
Spending Trends for Maintaining Postal Service Facilities                                              SM-AR-14-002



Introduction

This report presents the results of our audit of Spending Trends for Maintaining U.S.
Postal Service Facilities (Project Number 13YG005SM000). This audit was the result of
a value proposition1 between the OIG and the vice president, Facilities. Our objective
was to determine the impact of budget constraints on the Postal Service's ability to fund
facility repairs, alterations, and capital improvements. See Appendix A for additional
information about this audit.

The Postal Service’s Facilities organization manages more than 32,000 facilities with
more than 280 million square feet (SF) of space.2 Postal Service Finance and Planning
allocates an annual budget to Facilities officials to fund repairs and capital
improvements. From fiscal years (FY) 2009 to 2012, financial challenges have led to a
$382-million decrease in the budget for repairs, alterations, and capital improvements.

The Facilities organization identifies facility repairs through two methods: the annual
prioritization list and the Facilities Single Source Provider (FSSP) system.3 The
prioritization list is created based on facility inspections at the beginning of the year and
the FSSP system monitors repair requests that occur throughout the year. Funding is
allocated to the highest priority repairs.

Conclusion

Budget constraints have affected the Postal Service’s ability to fund repairs, alterations,
and capital improvements. In FY 2012, the Postal Service spent $266 million (29
percent) below the industry average on facility repairs, spending $2.694 per square foot
versus $3.81 per square foot. As a result, during FYs 2011 and 2012, Facilities did not
complete 19,033 repairs (18 percent) estimated to cost more than $271 million. Fifty
percent of these incomplete repairs represented safety, security, and potential future
major repairs. Future costs for these unfunded repairs could reach $1.4 billion.

Sixteen percent of these repairs represented potential Occupational Safety and Health
Administration (OSHA) violations, which could result in fines estimated at about
$2.9 million. In addition, Facilities can improve its repair prioritization process to ensure
repairs are accurately prioritized. Misclassified repairs led to critical repairs being

1
  An agreement between the U.S. Postal Service Office of Inspector General (OIG) and a Postal Service vice
president agreeing to a specific body of work. The agreement identifies the area of focus, objectives, goals, scope of
work, and anticipated value.
2
  Facility inventory as of December 11, 2012.
3
  FSSP was administered by the Facilities organization and was established for Postal Service personnel to record
facility-related repairs and alterations. FSSP call centers respond to Postal Service facility repair and alteration
needs, which are categorized as emergency, urgent, or routine.
4
  Benchmarked statistics did not include capital expenses. Because of the variations in company capitalization
processes, determining the nature of the expenses to include in the calculation was not feasible. As a result, we took
a conservative approach to our cost per square foot estimation that included capital expenses. Repair expense costs
per square foot excluding capital expenses is $1.82.
                                                             1
Spending Trends for Maintaining Postal Service Facilities                                                SM-AR-14-002



identified as low priority and repair prioritization lists were not reconciled to prior years’
lists annually.

Spending Below Industry Average

The Postal Service spent $266 million (29 percent) below the industry average on
facility repairs5 in FY 2012 — spending $2.69 per square foot versus the industry
average of about $3.81 per square foot. As a result, Facilities did not complete 19,033
of 106,615 repairs (18 percent) during FYs 2011 and 2012. These repairs were needed
at 8,800 facilities with an estimated cost of more than $271 million. Fifty percent of
these incomplete repairs represented safety, security, and potential future major repairs;
and 16 percent of these repairs were potential OSHA violations.

Facilities ensures the safety and security of Postal Service properties by identifying,
prioritizing, and completing repairs to meet the needs of operations. However, given the
Postal Service's financial challenges, funds to complete all repairs were limited. Despite
budget constraints, Facilities could have reallocated funds for repairs and alterations by
presenting a business case to Postal Service Finance and Planning. Facilities did not
present a business case in FYs 2011 and 2012 to reallocate funds to complete repairs
and avoid increased repair costs in future years. According to Finance and Planning,
budget reallocations for safety and security-related repairs are more likely to succeed.
For the FY 2014 budget, Facilities submitted a business case for the reallocation of
$180 million in repair funding; however, a strategy has not been developed with Finance
and Planning to complete all repairs in order to adequately maintain facilities.

By not completing necessary repairs, the Postal Service exposes itself to increased
costs in future years. One of the nation's largest real estate firms recommends De
Sitter's "Law of Fives" as a method of estimating the future costs of deferred repairs.
The "Law of Fives”6 concludes that if repairs are not performed, repair expenses can
reach five times the repair costs in subsequent years. Based on this formula, future
costs of incomplete repairs could reach $1.4 billion. However, we conservatively
classified assets at risk of at least $271 million related to the future costs of not
performing repairs.7 In addition, these incomplete repairs could result in potential OSHA
fines of up to $2.9 million. See Appendix B.




5
  This estimate is conservative, because it does not account for the Postal Service's facilities that were open 24
hours, 7 days a week. Operational hours directly impact the useful life and repair needs of a facility. Based on the
Postal Service's operational requirements and the age of its facilities, spending for repairs should be more
comparable to industry averages.
6
  De Sitter's "Law of Fives" is an industry theory for estimating deferred maintenance costs. De Sitter theorizes that
deferred maintenance is more than the current costs of the repair and includes the compound effect of deferring
maintenance from 1 year to the next.
7
  At a minimum, future costs of repairs are equivalent to the current estimated costs of repairs.

                                                           2
Spending Trends for Maintaining Postal Service Facilities                            SM-AR-14-002



Repair Prioritization Process

The Facilities organization could improve its repair prioritization process to ensure
repairs are accurately prioritized. Misclassified repairs led to critical repairs being
identified as low priority and repair prioritization lists were not reconciled annually.
Postal Service policy8 requires a ranking of repairs based on priority level and annual
preparation of repair prioritization lists. Funding is then allocated to the highest priority
projects.

Misclassified Repairs

Nine percent (1,136 of 12,258) of lower priority repairs should have been classified as
high priority during FYs 2011 and 2012. This misclassification was a result of system
controls that automatically rank repair needs identified during the year as low priority.
The Facilities organization attempted to correct misclassified repairs by performing
manual reviews; however, no formal process was in place to identify or correct
misclassified critical repairs. Because the prioritization ranking was inaccurate and no
formal review process existed to monitor repair classifications, there is increased risk
the Postal Service may not be completing critical repairs.

Reconciliation of Prioritization Lists

Facilities did not include all incomplete FY 2011 repairs on the FY 2012 repair
prioritization list. Although Facilities attempted to manually carry over incomplete repairs
from prior years, it did not perform a complete reconciliation of the annual lists because
there was no requirement to do so. As a result, there was a substantial risk that
necessary repairs were not identified and prioritized in the subsequent year.

Recommendations

We recommend the vice president, Facilities and acting vice president, Finance and
Planning:

1. Develop a strategy to complete all repairs in order to adequately maintain Postal
   Service facilities.

We recommend the vice president, Facilities:

2. Provide Finance and Planning with a business case to reallocate funds to critical
   repairs in order to mitigate future repair costs.




8
    The Postal Service Facility Inspection Program Review, dated October 19, 2010.

                                                          3
Spending Trends for Maintaining Postal Service Facilities                        SM-AR-14-002




3. Establish written procedures to ensure repair classifications are accurate each year
   and to reconcile prioritization lists yearly to identify incomplete repairs to carry
   forward.

Management’s Comments

Management agreed with our recommendations; however, they did not state whether
they agreed or disagreed with the findings. Regarding recommendation 1, management
will continue to allocate funding on an annual basis for repairs that impact employee
safety, security, or potential future major repairs through the established business case
and capital reallocation processes. In subsequent correspondence, management
agreed to develop a strategy to address unfunded repairs should more funds become
available in the future by March 31, 2014. In regard to recommendation 2, management
will request reallocation of funds for critical repairs through the business case process
on an as needed basis. With regard to recommendation 3, management will develop
written procedures for repair classifications and prioritization list reconciliation by
January 17, 2014.

Management did not agree with representations that supported our cost per square foot
analysis. Specifically, management stated the total expenses for account classification
codes 3B and line 63 in the Postal Service’s Financial Performance Report (FPR) for FY
2012 did not include capital improvements attributed to operations with unique finance
numbers and, therefore, were not included in the report data. Management also stated
that the total salaries and benefit dollars did not include expenses associated with
maintenance management. Finally, management stated that a thorough check of the
180 unfunded repairs in our review revealed that all projects classified as safety- or
security-related have been completed or are active projects.

Management stated that, given the current financial and liquidity challenges facing the
Postal Service, the agency enforced a capital commitment plan that was below average
historical levels. Further, they stated that they initiated an ongoing capital freeze in 2009
to conserve cash and there was a decrease in Facilities planned repair dollars during
the audit. Facilities agreed that there have been exceptions granted from the freeze to
expend funds on projects that address health, safety, security, and continuity of
operations projects. See Appendix C for management’s comments in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations and
corrective actions should resolve the issues identified in the report.




                                                     4
Spending Trends for Maintaining Postal Service Facilities                      SM-AR-14-002



Additionally, the OIG contends that representations in the report adequately support the
analysis performed as follows:

   Management stated that our analysis did not include total FY 2012 expenses for
    lines 3B and 63. We did not include the total expenses for lines 3B and 63 because
    many transactions associated with these line items (such as capital improvements
    related to Information Technology and Retail Operations) did not specifically relate to
    repairs, alterations, and capital improvements performed by Facilities. We excluded
    such transactions from our analysis and stand by our calculation of $370 million in
    expenses for repairs, alterations, and capital improvements.

   Management stated that our analysis did not include salaries for Maintenance
    management; however, to account for such variables, we included capital
    expenditures in our calculation, which represented more than half ($207 million of
    $370 million) of the expenses. The industry averages used in our report did not
    include capital expenditures because industry standards measure capital projects
    separately from repair projects. Because of our conservative methodology, we
    believe our analysis adequately represents FY 2012 spending for Postal Service
    repairs and alterations.

   Management stated that our calculations for safety, security, and potential future
    major repairs, as well as repairs representing potential OSHA fines, were based on a
    review of 180 repairs, the vast majority of which have been completed or are active
    projects. During the time of our audit, these repair projects had not been completed.

The OIG considers all the recommendations significant and, therefore, requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. Recommendation 2 can be closed with the issuance
of this report. Recommendations 1 and 3 should not be closed in the Postal Service’s
follow-up tracking system until the OIG provides written confirmation that the
recommendations can be closed.




                                                     5
Spending Trends for Maintaining Postal Service Facilities                        SM-AR-14-002




                                   Appendix A: Additional Information

Background

The Postal Service Facilities organization manages more than 32,000 facilities with
more than 280 million SF of space.9 Postal Service Finance and Planning allocates an
annual budget to Facilities officials to fund repairs and capital improvements. From FYs
2009 to 2012, financial challenges have led to a $382-million decrease in the budget for
repairs and capital improvements. The Postal Service accounts for facility repair and
alteration expense under account classification code 3B in the Postal Service’s FPR.
Capital repairs and alterations are categorized under Code 63 in the FPR. See budget
trend analysis in Table 1:

        Table 1. Repairs and Alterations (3B) and Capital Expense (63) Budget Trend
                                 Analysis, FYs 2009 to 2012




                  Source: OIG analysis.

The Facilities organization identifies facility repairs through two methods: the annual
prioritization list and FSSP. In anticipation of the upcoming year's budget, a prioritization
list was created based on facility inspections and assessments. Identified repairs were
ranked by priority level, and funding was allocated to the highest priority projects.
Projects were prioritized as critical, high, medium, and low.

Additionally, repairs were identified throughout the year via FSSP as emergency,
urgent, or routine and budget funds were allocated to these repairs. FSSP was
supported and administered by the Facilities organization and was established for
Postal Service personnel to record facility-related repairs. FSSP call centers respond to
Postal Service facility repair needs.

9
    Facility inventory as of December 11, 2012.

                                                     6
Spending Trends for Maintaining Postal Service Facilities                       SM-AR-14-002




Objective, Scope, and Methodology

Our objective was to determine the impact of budget constraints on the Postal Service's
ability to fund facility repairs, alterations, and capital improvements.

To accomplish our objective we:

   Analyzed a random sample of data from the annual priority list for budget years
    FYs 2011 to 2012 and repair calls not completed in the FSSP system for FYs 2009
    to 2012 to identify safety and security issues, potential OSHA violations, lack of
    preventative maintenance, and potential future major repairs. In addition, we
    reviewed the status of repairs and the repair history of applicable buildings in the
    electronic Facilities Management System (eFMS).

   Interviewed management and staff from Postal Service Headquarters Facilities and
    Finance to determine the current processes for budgeting for facility repairs.

   Obtained benchmarking data for facility repairs from Whitestone Research to
    determine the industry standard for cost per square foot for facility repair. The data
    were aligned with the Postal Service's facility inventory and provided more direct
    square footage comparisons. For example, Whitestone provided detailed spending
    and costs per square foot for various facility types that directly correspond to the
    Postal Service's building inventory. These facility types were manufacturing plants,
    post offices, and retail facilities.

   Through the Enterprise Data Warehouse (EDW), we analyzed Postal Service budget
    and funding for facility repair, alteration, and capital improvement for FYs 2009 to
    2012 to determine trends and compare to industry standards.

We conducted this performance audit from October 2012 through November 2013 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management on August 26, 2013, and included their
comments where appropriate.

We assessed the reliability of computer-generated data by comparing source
documents to data in eFMS and EDW to validate monetary amounts and the certifying
official. We determined that the data were sufficiently reliable for the purposes of this
report.




                                                     7
Spending Trends for Maintaining Postal Service Facilities                        SM-AR-14-002




Prior Audit Coverage

The OIG did not identify any prior audits or reviews related to the objective of this audit.




                                                     8
Spending Trends for Maintaining Postal Service Facilities                                 SM-AR-14-002



                                           Appendix B: Other Impacts

                     Recommendation                     Impact Category     Amount
                           1                            Assets at Risk10   $271,509,594
                           1                            Assets at Risk        2,932,812
                   Total                                                   $274,442,406

Minimum Costs of Not Performing Repairs

One industry practice for estimating the costs of deferred maintenance is De Sitter's
"Law of Fives." This approach considers deferred maintenance as more than the current
costs of the repair and incorporates the compound effect of deferring maintenance from
1 year to the next. De Sitter asserts that if repairs are not performed, repair expenses
can reach five times the current repair costs in subsequent years. Based on this formula
we calculated the potential future costs of deferred repairs by multiplying repairs not
completed in FYs 2011 and 2012 by a factor of five. The total future costs of incomplete
repairs for these fiscal years ranged from $271,509,594 to $1,357,547,970. The lowest
range represents the current estimated costs of the repairs and, as a result, the
minimum cash outlay for the repairs in the future.

OSHA Fines

We calculated average FY 2012 fines of $62,437 for 33 of 180 repairs in our sample,
using an average cost of OSHA fines per incident. Based on this amount, we projected
potential OSHA fines of $2,932,812 based on the lower limit of a 95-percent confidence
for about 3,171 projected repairs in our universe that relate to safety, security, or
potential future major repairs.




10
     Assets or accountable items that are at risk of loss.


                                                             9
Spending Trends for Maintaining Postal Service Facilities       SM-AR-14-002



                            Appendix C: Management’s Comments




                                                     10
Spending Trends for Maintaining Postal Service Facilities   SM-AR-14-002




                                                     11
Spending Trends for Maintaining Postal Service Facilities   SM-AR-14-002




                                                     12
